necessary to accomplish the work. Further, the funds obligated by FEMA were available to
applicant for "drawdown"2 and potentially could have been used for inappropriate purposes.

Title 44, Code of Federal Regulations, Section 206.202 (44 CFR § 206.202 [October 2004]) and
FEMA's Public Assistance (PA) Guide (FEMA 322, October 1999, p.69) prescribe the procedures
for processing assistance to disaster grant recipients. Generally, an applicant requesting PA funds
for a large projece works with a FEMA Project Officer in preparing a PW that documents the scope
of work and cost estimate for the disaster funds needed. The applicant then acknowledges the PW
scope and cost estimate, and submits it to FEMA so that the funds may be obligated. 4 Further,
FEMA PA staff at the Baton Rouge Joint Field Office (JFO) developed supplemental guidance and
procedures specific to Hurricane Katrina. The JFO's guidance and procedures, entitled Process for
Public Assistance Funding, establish management controls in the form of "checks and balances"
between FEMA and the disaster grant recipients to ensure that the correct disaster funds are
disbursed to grant and subgrant recipients

FEMA and Jefferson Davis Parish officials were unaware of the excess obligation for PW 97. The
Parrish official told LOLA auditors that he had never seen the PW, only needed about $200,000 for
Katrina-related expenses, and had no projected use for the additional $2.7 million that FEMA
obligated. FEMA deobligated all but $200,000 of the $2.9 million when the grantee notified
appropriate FEMA officials of this error.

The error occurred because the FEMA Project Officer did not follow the management controls in
place to ensure that applicants receive and acknowledge the correct amount of funds. While this
could be an isolated incident, FEMA should take immediate actions to ensure that Project Officers
are aware of and follow procedures for Processing PWs.

We recommend that the Deputy Principal Federal Officer for Hurricane Katrina:

     1.	 Ensure that FEMA personnel follow appropriate management control procedures when
         processing project worksheets.

                      DISCUSSION WITH MANAGEMENT AND FOLLOW-UP

We discussed the results of this review with FEMA officials who acknowledged that an error had
occurred on PW 97. We also discussed the results with the Deputy Principal Federal Officer, who
concurred with our finding and recommendation.

Please advise the OIG by October 14,2005, of the actions taken or planned to implement the
recommendation. Should you have questions concerning this report, please call me, or your staff
may call Richard Berman, Assistant Inspector General for Audits, at (202) 254-4100. Major
contributors to this report were Tonda Hadley and Douglas Denson.

2 A "drawdown" is a disbursement of federal funds from the grantee to a subgrantee for disaster-related expenses

incurred by the subgrantee.

3 Federal regulations in effect at the time of the disaster set the large project threshold at $55,500.

4 44CFR § 206.202(e)(2).





                                                                                                                    2
